HORIZON CREDIT UNION
VISA CREDIT CARD ACCOUNT AGREEMENT
OPEN-END CREDIT AGREEMENT AND DISCLOSURE
This Agreement covers the Visa Credit Card Account issued by Horizon Credit Union ("Credit Union"). In this Agreement the words "you," "your," "yours,"
"applicant," and "Borrowers" mean any person who signs the application for this Account, any joint obligor, guarantor, authorized user, or the person whose
name is embossed on the Card. The words "we," "us," "our," and "Credit Union" mean Horizon Credit Union. The word "Card" means any one or more
credit cards issued under this Account. If you sign an application for this Account or sign or use any Card or PIN, or allow others to use the Card
or PIN, you and they will have accepted this Agreement just as if you and they signed it, and you and they, jointly and severally, will be bound by
the following terms and conditions which will govern this Account.
1. You Promise to Pay. You promise to pay us all amounts, plus any FINANCE CHARGES, which arise from use of the Card or Account by you or any
other person, and to be jointly and severally liable with such a person, unless such other person does not have actual, implied, or apparent authority for
such use, and you received no benefit from the use. You promise to pay us either by direct payment or by automatic transfers from shares or by payroll
deduction.
2. Purchases and Cash Advances. You must sign the Card to use it. Once you have signed the Card, you can use it to buy or lease goods, services, or
insurance wherever the Card is honored, up to the full amount of your Credit Line. You may use your Account to get Cash Advances (which also includes
Overdraft Protection Advances and Loan Advances) from us. You may also use your Card to get a cash advance from participating financial institutions
and to access your line of credit at automatic teller machines (ATM's) within the VISA network or any other ATM's we designate. Cash advances at ATM's
are limited to $1,000.00 per day subject to the availability of credit. You may not use your Card or Account in connection with any unlawful or illegal
transaction. We may refuse to honor any transaction that we believe may be illegal or unlawful.
3. Loan Drafts. If we approve, you may obtain advances under your account by writing preprinted loan drafts that we supply to you. Your use of loan
drafts will be shown as credit advances on your monthly statement. We may not honor your loan draft if your draft is postdated, payment of the draft will
exceed your credit limit, a draft is signed by a person without authorized access, the amount of the draft is less than the minimum required amount, your
account has been terminated or suspended, or any drafts have been reported lost or stolen. You may stop payment on a loan draft if you provide us with
the exact information describing the draft. If you give us incorrect information, we will not be responsible for failing to stop payment. You understand there
may be a charge for loan draft printing and charges for stop payment requests, returned items, draft copies, and other fees or costs we incur in handling
your loan drafts. Our liability for a wrongful dishonor is limited to your actual losses; however, a dishonor for the reasons stated above is not a wrongful
dishonor.
4. Overdraft Protection Advances. We will treat transactions that would overdraw your checking account as requests to transfer funds from your VISA
Account to cover the shortage. We will make such transfers in increments that we establish from time to time. If we have suspended or terminated your
Account, or if the amount of the transfer would exceed your credit limit, we may refuse the transfer and return the pending items.
5. Credit Line. If we approve your application, this Agreement will constitute a revolving line of credit for an amount which will be the Credit Line under
your Account. We will advise you of the amount of your Credit Line. That amount will be the maximum amount you may have outstanding at any one time.
You agree not to attempt to obtain more credit than the amount of your Credit Line. However, if you temporarily exceed your Credit Line, you agree to
repay the excess immediately, even if we have not yet billed you. Obtaining such credit does not increase your Credit Line. We retain the right to increase
or decrease your Credit Line at any time. Any increase or reduction in the amount of your Credit Line will be shown on your monthly statement or by
separate notice together with any changes in the applicable Minimum Monthly Payments. Your eligibility for this Credit Line is determined by our loan policy
and may be terminated at our sole discretion, without demand or notice. You may close your Credit Line at any time by notifying us in writing and returning
all Cards cut in half. If you terminate this Agreement or if we terminate or suspend your credit privileges, the provisions of this Agreement and your liability
hereunder shall otherwise remain in full force and effect until you have paid us all sums due us under this Agreement and returned all Cards.
6. Minimum Monthly Payment. You agree that you will pay each month not less than the Minimum Monthly Payment on or before the scheduled monthly
due date. Minimum Monthly Payments may include all amounts past due, any balance over the limit, late charges, cash advance fees, over limit charges,
and, if applicable, other agreed upon and assessed fees and accrued interest, and the minimum regular payment. The minimum regular payment will be
equal to 2% of the outstanding balance, or $20.00, whichever is greater (for Platinum and Extra Awards Platinum Cards) or 3% of the outstanding balance
or $15.00, whichever is greater (for Classic Accounts). Every month you must pay the Minimum Payment on or before the due date shown on your
statement. You may pay in full for all your purchases and cash advances each month, or you may repay in monthly installments. We can accept late
payments or partial payments, or checks, drafts, and money orders marked "payment in full," without prejudice to our rights under this Agreement, which
are hereby explicitly reserved. Payments will be applied first to previously billed and unpaid FINANCE CHARGES, previously billed and unpaid purchases
and cash advances, and the remainder, if any, to any new purchases or other fees or charges. The minimum payment may be allocated at the Credit
Union's discretion to pay off lower rate balances, such as promotional offers, before higher rate balances, such as cash advances or purchases. Payments
in excess of the minimum payment will be allocated first to higher rate balances, as applicable.
7. Periodic Statements. Each month, if your outstanding balance exceeds $1.00, we will send you a statement showing new purchases, cash advances,
payments, and credits made to your Account during the billing cycle, your Previous Balance, your "New Balance," any FINANCE CHARGE, and any other
charges. Your statement also will identify the remaining credit limit available and the Minimum Monthly Payment you must make for that billing period and
the date it is due. You agree to retain for statement verification copies of transaction slips resulting from each purchase, each advance, and other
transaction on your Account. Unless you notify us of a billing error as described below, you accept your monthly statement as an accurate statement of
your Account with us.
8. Circumstances Under Which a Finance Charge Will Be Imposed. The total outstanding balance of purchases and cash advances in the Account on
the closing date of a billing cycle, including any FINANCE CHARGE will be shown on the Periodic Statement for that billing cycle as the "New Balance."
a. Cash Advances. A FINANCE CHARGE will be imposed on cash advances from the date each cash advance is made. There is no time period
within which to pay to avoid a periodic FINANCE CHARGE on cash advances. In addition to the FINANCE CHARGE based on the periodic rate, a Cash
Advance Fee (Also referred to as a Loan Advance Fee) (FINANCE CHARGE), equal to 3% of the amount of the advance, will be imposed on all Cash
Advances. The minimum cash advance fee (FINANCE CHARGE) is $3.00.
b. Purchases . If you had a zero or credit balance at the beginning of a billing cycle or you paid the entire New Balance on the previous cycle's
billing statement by the due date shown on that statement, you will not pay any FINANCE CHARGE on the portion of purchases included in the New
Balance that is paid by the due date shown on your statement.This "grace period" allows you to avoid a finance charge on purchases for a billing cycle.
However, if you do not pay the New Balance for purchases within the grace period, your finance charge will accrue on any unpaid purchase transactions
beginning on the first date of the billing cycle in which the payment is due.
9. Method Used to Determine the Balance on Which the Finance Charge May Be Computed and Amount of Finance Charge. The Credit Union
figures the FINANCE CHARGE on your Account by applying the Periodic Rate to the "Average Daily Balance" of purchases and cash advances for your
Account (including current transactions) and multiplying the result by the number of days in the billing cycle. To get the "Average Daily Balance" we take
the beginning balance of your Account each day, add any new purchases, cash advances, cash advance fees, and subtract any payments or credits. This
gives us the daily balance. Since cash advance fees are considered FINANCE CHARGES, you may pay compounded interest on your account. Then, we
add up all the daily balances for the billing cycle and divide the total by the number of days in the billing cycle. This gives us the "Average Daily Balance."

10. Periodic Rate and Corresponding Annual Percentage Rate. The ANNUAL PERCENTAGE RATE may vary, and is determined by adding a margin to
the index, which is the highest Prime Rate as published in the Wall Street Journal. Your ANNUAL PERCENTAGE RATE will be adjusted on the first day of
each billing cycle based on the index rate as of the first day of the calendar month in which the billing cycle begins. The margin for your account will be
disclosed to you on a separate document that is part of this Agreement. The ANNUAL PERCENTAGE RATE is divided by 365 to produce the periodic rate.
Your ANNUAL PERCENTAGE RATE will not rise above 18%. If we do not receive any minimum monthly payment within 60 days after its due date, we
may increase your ANNUAL PERCENTAGE RATE TO 18.00%.
Application #

Page 1 of 5

LN20-022

11. Conditions under Which Other Charges May Be Imposed. We may impose fees and charges on your Account as set forth below. The Credit
Union reserves the right to assess other fees in the future, including a late payment fee. You will be notified of any new fees as required by law.
a. Annual Fee. There is no annual fee for VISA Platinum, VISA Extra Awards Platinum or Classic Accounts.
b. Late Fee. You agree to pay a late fee of 5% of the minimum monthly payment amount for each payment not paid within 10 days of the due date,
with a minimum of $15.00.
c. Returned Check Charge. A $15.00 charge will be assessed against your Account when a check submitted for payment on the Account is
returned, regardless of the reason.
d. Research and Copying Fees. We may charge you $4.00 for each copy and $15.00 per hour of research required if you request copies of any
items or documents related to your Account. The charge for statement copies is $10.00 each. If the request relates to a billing error and we determine that
a billing error was made, any photocopying charges will be refunded.
e. Card Replacement Fee. A $6.00 charge will be assessed against your Account for each replacement card you request.
f. Balance Transfer for Lost/Stolen Card. If we close your Account and transfer the balance to a new Account due to a lost or stolen Card or
number, we will charge your Account $10.00.
g. Attorney's Fees and Costs. If you default on any part of this Agreement, you agree to pay us all costs to collect your Account, including court
costs and reasonable attorney fees whether or not there is a lawsuit, and fees on any appeal and fees for bankruptcy proceedings, appeals, and any post
judgment collection services, if applicable. These fees and costs may be added to your Account balance and will bear interest at the ANNUAL
PERCENTAGE RATE in effect at that time. Costs, in this section, also includes collection costs added to your account to make US whole.

12. Conditions of Use. The use of your Card and Account are subject to the following conditions:
a. Ownership of Cards. Any Card or other credit instrument or device which we supply to you is our property and must be returned to us, or to any
person whom we authorize to act as our agent, or to any person who is authorized to honor the Card, immediately according to instructions. The Card may
be repossessed at any time in our sole discretion without demand or notice. You cannot transfer your Card or Account to another person.
b. Honoring the Card. Neither we nor merchants authorized to honor the Card will be responsible for the failure or refusal to honor the Card or any
other credit instrument or device we supply to you. If a merchant agrees to give you a refund or adjustment, you agree to accept a credit to your Account in
lieu of a cash refund.
c. Foreign Transactions. Purchases and cash advances made in foreign currencies will be charged to your account in U.S. dollars. The exchange
rate between is a rate selected by Visa for a range of rates available in wholesale currency markets for the applicable central processing date, which may
vary from the rate Visa itself receives or the government-mandated rate in effect for the applicable central processing date. The exchange rate used on the
processing date may differ from the rate that would have been used on the purchase date or cardholder statement posting date.
A fee of 1% of the amount of the transaction, calculated in U.S. dollars, will be imposed on all foreign transactions, regardless of what currency is used to
initiate the transaction.
d. Notices and Payments. All notices will be sent to your address as shown in the application. You agree to advise us promptly if you change your
mailing address. All payments should be mailed to us at the remittance address shown on your monthly statements. Payments received at that address
by 5:00 PM will be credited to your Account as of the date received. Written notices and inquiries to us must be sent to:

Horizon Credit Union
P.O. Box 15128
Spokane, WA 99215
Phone :(509) 928-6494/(800) 852-5316
e. Personal Identification Number. If we issue you a Personal Identification Number ("PIN") for use with your Card in accessing your line of credit
at automatic teller machines ("ATM's"), these numbers are issued to you for your security purposes. These numbers are confidential and should not be
disclosed to third parties. You are responsible for safekeeping your PIN. You agree not to disclose or otherwise make available your PIN to anyone not
authorized to sign on your Accounts. To keep your Account secure, please do not write your PIN on your Card or keep it in the same place as your Card.

13. Default. You will be in default under this Agreement if any of the following occur: (a) any Minimum Monthly Payment is not made when due; (b) you
become insolvent, bankrupt, or you die; (c) you violate any part of this Agreement, or any other agreement with us; or (d) if we reasonably deem ourselves
insecure with respect to your Account. Upon default, we may declare the entire unpaid balance immediately due and payable, and you agree to pay that
amount plus any attorney's fees and costs incurred by us. We can delay enforcing any right under this Agreement without losing that right or any other
right. We will notify you in writing of any such action as soon as practical if it occurs.

14. Governing Law. This Agreement will not take effect until it is approved by us. This Agreement shall be governed by the laws of the State of
Washington.

15. Severability. If any provision of this Agreement is held invalid, the remaining provisions that are severable shall remain in effect.
16. Loss or Theft of Card. You agree to notify us immediately at Horizon Credit Union, P.O. Box 15128, Spokane, WA 99215, telephone (509) 928-6494
or toll free (800) 852-5316, of the loss, theft or unauthorized use of your Card. You will not be liable for any losses provided you were not grossly negligent
or fraudulent in handling your Card. In any event, your liability for unauthorized VISA credit card transactions shall not exceed $50.00
17. Credit Information/Financial Statements. You authorize us to release information to others (e.g., credit bureaus, merchants, and other financial
institutions) regarding the status and history of your Credit Line. You agree to provide us, at any time we deem necessary, with a current financial
statement and/or a new credit application upon request. We may investigate your credit directly or through a credit reporting agency.

18. Acknowledgment and Amendments. You understand and agree to the terms and conditions in this Agreement and the Fair Credit Billing Notice. You
acknowledge that you have received a copy of this Agreement and Disclosure and the Fair Credit Billing Notice. We have the right to change any terms or
conditions of this Agreement at any time, subject to applicable laws. If we change the periodic rate, and subsequent purchases or advances are made
under this Agreement, the entire balance will be subject to the new rate.
19. Billing Errors Notice, Your Billing Rights.
Keep This Notice for Future Use. This notice contains important information about your rights and our
responsibilities under the Fair Credit Billing Act. Notify Us in Case of Errors or Questions About Your Bill. If you think your bill is wrong, or if you need
more information about a transaction on your bill, write to us at the address listed above. Write to us as soon as possible. We must hear from you no later
than 60 days after we sent you the first bill on which the error or problem appeared. You can telephone us, but doing so will not preserve your rights. In
your letter, give us the following information:

Application #

Page 2 of 5

LN20-022

1) Your name and Account number.
2) The dollar amount of the suspected error.
3) Describe the error and explain, if you can, why you believe there is an error. If you need more information, describe the item you are not
sure about.
If you have authorized us to pay your Account bill automatically from your share or share draft, you can stop the payment on any amount you
think is wrong. To stop the payment your letter must reach us three business days before the automatic payment is scheduled to occur.
Your Rights and Our Responsibilities After We Receive Your Written Notice. We must acknowledge your letter within 30 days, unless we have
corrected the error by then. Within 90 days, we must either correct the error or explain why we believe the bill was correct.
After we receive your letter, we cannot try to collect any amount you question, or report you as delinquent. We can continue to bill you for the amount you
question, including FINANCE CHARGES, and we can apply any unpaid amount against your credit limit. You do not have to pay any questioned amount
while we are investigating, but you are still obligated to pay the parts of your bill that are not in question.

If we find that we made a mistake on your bill, you will not have to pay any FINANCE CHARGE related to any questioned amount. If we didn't make a
mistake, you may have to pay FINANCE CHARGES, and you will have to make up any missed payments on the questioned amount. In either case, we
will send you a statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may report you as delinquent. However, if our explanation does not satisfy you and you write to us
within ten days telling us that you still refuse to pay, we must tell anyone we report you to that you have a question about your bill. And, we must tell you
the name of anyone to whom we reported you. We must tell anyone we report you to that the matter has been settled between us when it finally is.

If we don't follow these rules, we can't collect the first $50.00 of the questioned amount, even if your bill was correct.
Special Rule for Credit Card Purchases. If you have a problem with the quality of property or services that you purchased with a credit card, and you have
tried in good faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on the property or services.
There are two limitations on this right:

1) You must have made the purchase in your home state or, if not within your home state within 100 miles of your current mailing address; and
2) The purchase price must have been more than $50.00.
These limitations do not apply if we own or operate the merchant, or if we mailed you the advertisement for the property or services.

20. Security Interest. To secure your Account, you grant us a purchase money security interest under the Uniform Commercial Code in any goods you
purchase through your Account. If you default, we will have the right to recover any of these goods which have not been paid for through application of
your payments in the manner described in Section 5. In addition, you grant and pledge to the Credit Union a security interest in all of your shares and
deposits in your Credit Union accounts. If you are in default, the Credit Union may apply any of these funds toward the balance of your Account without
further notice. Collateral securing other loans with the Credit Union (except loans secured by real property) also secures this Account.

Applicant's Signature

Date

Co-Applicant's Signature

Date

Authorized User (Print Name)

Date

Authorized User's Signature

Date

SECURITY AGREEMENT AND PLEDGE. By
signing this application, acceptance or
authorized use of any credit card(s) issued, I/we
pledge our shares as defined by our
Membership Agreement to secure payment of
my/our obligations on this account.
Additional
Security: I/we understand that collateral
securing other loans will secure this account;
and that property purchased with my/our credit
card(s) will also secure this account.

21. Electronic Documents. You agree that any copy of this Agreement, or any document referenced in this Agreement, stored by use of computer
hardware or software, and the original destroyed, shall be the equivalent to the original Agreement or document which bears your cursive signature or
initials. You agree not to object to the introduction of such copy in any court of law, as evidence, based on the contention that the Credit Union has not
produced the original Agreement or document or that the produced Agreement or document was computer generated. Further, if you have agreed to these
terms and conditions, or other referenced documents, not with a cursive signature acknowledgement but with an electronic signature, you agree that the
Credit Union may use such electronic signature as evidence in any court of law of your consent to this Agreement, or referenced documents, and its and
their terms, respectively. The term "copy" shall include but not be limited to facsimile, carbon copy or portable document format.

Acknowledgment
By signing below, you indicate that you understand and agree to the terms of this Agreement and Disclosure. You acknowledge receipt of a copy of this
Disclosure.
The ANNUAL PERCENTAGE RATE applicable to your Account is

%, with a corresponding periodic rate of

Borrower

Date

Co-Borrower

Date

Application #

Page 3 of 5

%.

LN20-022

VISA CLASSIC CARD

14.50% - 18.00%

Annual Percentage Rate (APR) for purchases,
when you open your account.
Cash Advances, and Balance Transfers
After that, your APR will vary with the market based on the Prime Rate.
Penalty APR and When it Applies

18.00%This APR may be applied to your account if we do not receive any minimum payment within
60 days after the due date.

How to Avoid Paying Interest on Purchases

Your due date is approximately 25 days after the close of each billing cycle. We will not charge any
interest on the portion of the purchases balance that you pay by the due date each month.

For Credit Card Tips from the Federal
Reserve Board

To learn more about factors to consider when applying for or using a credit card, visit the website of
the Federal Reserve Board at http://www.federalreserve.gov/creditcard.

Annual Fee

None.

Transaction Fees
* Cash Advance
* Foreign Transaction

3.00% of advance amount (minimum $3.00)
1.00% of the US dollar amount of the foreign transaction

Penalty Fees *
*
*
*

5.00% of payment, minimum $15
$6.00
$15.00
$10.00

Late Payment
Card Replacement
Returned Payment
Lost or Stolen

How We Will Calculate Your Balance: We use a method called "average daily balance". See Section 9 in Agreement above for explanation of
computation method. We reserve the right to amend the VISA Credit Card Agreement as permitted by law. The above rates and fees are current as of
September 1, 2011.

Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.

VISA EXTRA AWARDS PLATINUM CARD
Annual Percentage Rate (APR) for purchases,
12.40%
- 16.40% when you open your account.
Cash Advances, and Balance Transfers
After that, your APR will vary with the market based on the Prime Rate.
Penalty APR and When it Applies

18.00% This APR may be applied to your account if we do not receive any minimum payment within
60 days after its due date.

For Credit Card Tips from the Federal
Reserve Board

Your due date is approximately 25 days after the close of each billing cycle. We will not charge any
interest on the portion of the purchases balance that you pay by the due date each month.
To learn more about factors to consider when applying for or using a credit card, visit the website of
the Federal Reserve Board at http://www.federalreserve.gov/creditcard.

Annual Fee

None.

Transaction Fees
* Cash Advance
* Foreign Transaction

3.00% of advance amount (minimum $3.00)
1.00% of the US dollar amount of the foreign transaction

Penalty Fees *
*
*
*

5.00% of payment, minimum $15
$6.00
$15.00
$10.00

How to Avoid Paying Interest on Purchases

Late Payment
Card Replacement
Returned Payment
Lost or Stolen

How We Will Calculate Your Balance: We use a method called "average daily balance". See Section 9 in Agreement above for explanation of
computation method. We reserve the right to amend the VISA Credit Card Agreement as permitted by law. The above rates and fees are current as of
September 1, 2011.

Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.

Page 4 of 5

Application #

LN20-022

VISA PLATINUM CARD
Annual Percentage Rate (APR) for purchases,
Cash Advances, and Balance Transfers

9.40%
- 13.40% when you open your account.
After that, your APR will vary with the market based on the Prime Rate.

Penalty APR and When it Applies

18.00% This APR may be applied to your account if we do not receive any minimum payment within
60 days after its due date.

How to Avoid Paying Interest on Purchases

Your due date is approximately 25 days after the close of each billing cycle. We will not charge any
interest on the portion of the purchases balance that you pay by the due date each month.

For Credit Card Tips from the Federal
Reserve Board

To learn more about factors to consider when applying for or using a credit card, visit the website of
the Federal Reserve Board at http://www.federalreserve.gov/creditcard.

Annual Fee

None.

Transaction Fees
* Cash Advance
* Foreign Transaction

3.00% of advance amount (minimum $3.00)
1.00% of the US dollar amount of the foreign transaction

Penalty Fees *
*
*
*

5.00% of payment, minimum $15
$6.00
$15.00
$10.00

Late Payment
Card Replacement
Returned Payment
Lost or Stolen

How We Will Calculate Your Balance: We use a method called "average daily balance". See section 9 in Agreement above for explanation of
computation method. We reserve the right to amend the VISA Credit Card Agreement as permitted by law. The above rates and fees are current as of
September 1, 2011.

Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.

Page 5 of 5

Application #

LN20-022

